In the

Supreme Court of the United States
October Term, 2021
CARLOS GUZMAN-MERCED,
Petitioner,
v.
United States of America,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, CARLOS GUZMAN-MERCED, requests leave to file the
annexed Petition for a Writ of Certiorari to the United States Supreme Court
for the First Circuit without prepayment of costs and to proceed in forma
pauperis pursuant to Rule 39. The United States Court of Appeals for the First
Circuit appointed counsel, Vivian Shevitz, under the Criminal Justice Act of
1964, 18 U.S.C. Section 3006A, to represent Petitioner. Petitioner has
remained incarcerated since the commencement of his case, and remains
indigent.
I declare under penalty of perjury that the foregoing is true and correct.
March 9, 2021
/s/ Vivian Shevitz
Vivian Shevitz
Attorney for Petitioner
46 Truesdale Lake Drive
South Salem, New York 105 90
(914) 763-2122
vivian@shevitzlaw.com

